1

*

APPENDED

s

--

Case: 19-15532, 12/09/2020, ID: 11920066, DktEntry: 31, Page 1 of 1

UNITED STATES COURT OF APPEALS

FILED

FOR THE NINTH CIRCUIT

DEC 9 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

MALIA ARCIERO,
Defendant-Appellant.

No.

19-15532

D.C. Nos.
1:18-cv-00090-SOM
l:13-cr-01036-SOM-l
District of Hawaii,
Honolulu
ORDER

Before: WALLACE, BEA, and BENNETT, Circuit Judges.
The panel unanimously votes to deny the petition for panel rehearing. Dkt.
No. 29. Judge Bennett voted to deny Arciero’s petition for rehearing en banc, and
Judges Wallace and Bea so recommend. Id.
The full court has been advised of the petition for rehearing en banc, and no
judge of the court has requested a vote on them. Fed. R. App. P. 35.
Arciero’s petitions for rehearing and rehearing en banc, filed November 17,
2020, are DENIED.

(i ot yj

Case: 19-15532, 11/06/2020, ID: 11884037, DktEntry: 28-1, Page 1 of 5

FILED

NOT FOR PUBLICATION

NOV 6 2020

UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS:
i

UNITED STATES OF AMERICA,
Plaintiff-Appellee,

No.

19-15532

v.

D.C. Nos.
1:18-cv-00090-SOM
l:13-cr-01036-SOM-l

MALIA ARCIERO,

MEMORANDUM*

Defendant-Appellant.

Appeal from the United States District Court
for the District of Hawaii
Susan Oki Mollway, District Judge, Presiding
-«■>

f

Argued and Submitted October 21, 2020
Honolulu, Hawaii
Before: WALLACE, BEA, and BENNETT, Circuit Judges.
Malia Arciero was convicted of four drug-related offenses in violation of 21
U.S.C. §§ 846, 841(a)(1), 841(b)(1)(A), and 841(b)(1)(C). The district court
sentenced her to 172 months imprisonment and five years supervised release.

This disposition is not appropriate for publication and is not precedent .
except as provided by Ninth Circuit Rule 36-3.
i

(2 ot,y)

Case: 19-15532, 11/06/2020, ID: 11884037, DktEntry: 28-1, Page 2 of 5

Arciero appealed from the conviction and challenged conditions of her supervised
release, and our court affirmed in a memorandum disposition. United States v.
Arciero, 679 F. App’x 581 (9th Cir. 2017).
Arciero filed a 28 U.S.C. § 2255 motion to vacate, set aside, or correct her
sentence, asserting a claim for ineffective assistance of counsel. The district court:
denied the motion and declined to issue a certificate of appealability (COA).
Arciero appealed from the district court’s order, and our court granted a COA. We
have jurisdiction under 28 U.S.C. §§ 1291 and 2253. “We review de novo the

!

district court’s determinations of whether a defendant received ineffective
assistance of counsel. . . .” United States v. Alaimalo, 313 F.3d 1188, 1191 (9th
Cir. 2002). “We review for clear error the factual findings underlying the denial of
a § 2255 motion.” Id. We affirm.
To succeed on an ineffective assistance of counsel claim, a convicted
defendant must show that counsel’s performance was deficient and entailed “errors '
i.

so serious that counsel was not functioning as the ‘counsel’ guaranteed the
defendant by the Sixth Amendment,” and “that the deficient performance
prejudiced the defense.” Strickland v. Washington, 466 U.S. 668, 687 (1984).
Discussing practical considerations, the Court stated that “a court need not
determine whether counsel’s performance was deficient before examining the

2

i

:

(3 or yj
Case: 19-15532, 11/06/2020, ID: 11884037, DktEntry: 28-1, Page 3 of 5
;

prejudice suffered by the defendant as a result of the alleged deficiencies.” Id. at
i
!

697.
Arciero was arrested in April 2013 and retained Michael J. Green in July
2013. The government offered Arciero a plea agreement by which she could have
avoided a potential ten-year mandatory minimum sentence. She refused it and
discharged Green because he encouraged her to plead guilty.
In November 2013, Arciero retained Gary Dubin and told him that she was

;

innocent, wanted to go to trial, and had been sexually assaulted by the government
case agent. After Arciero advised Dubin of the sexual assault allegations, Dubin
i .

submitted three pretrial motions in August 2014. Each motion was supported by :■
Arciero’s declaration describing the sexual assault allegations in detail.
:

;

In November 2014, after her sister pled guilty to related offenses, Arciero
expressed doubt about going to trial and an interest in pleading guilty. Dubin
chastised Arciero for her reluctance, sometimes harshly, and he emphasized that
the government was not currently offering Arciero a plea agreement. Nonetheless,
Dubin contacted the government to discuss a possible plea. The government
offered a proposed agreement that required Arciero to recant her sexual assault

•:

allegations. Arciero stated that she would accept the agreement only if the
government proposed a sentence of less than three years imprisonment. The

3

[

1

!
i

!

Case: 19-15532, 11/06/2020, ID: 11884037, DktEntry: 28-1, Page 4 of 5

(4 or;»)

government responded that such an agreement was not possible because of
Arciero’s sexual assault allegations, which it characterized as false.
Arciero’s trial began in December 2014, and in January 2015, the jury
convicted Arciero on all counts. On September 18, 2015, three days before her

?

sentencing hearing, Arciero retracted her accusations against the case agent and
stated that the allegations were false. At sentencing, the district court imposed a i
J

two-level obstruction of justice enhancement based on, among other things,
Arciero’s false accusations against the case agent. Arciero’s advisory sentencing
guideline range was 151 to 188 months. Describing Arciero’s retraction of the
sexual assault allegations as a “very opportunistic, very manipulative 55 u last-minute
conversion,” the district court reasoned that a “significant sentence” was
appropriate. The court imposed concurrent sentences of 172 months imprisonment
to each count.
We disagree with Arciero’s ineffective assistance of counsel claim because;
•i

she fails to show that she was prejudiced by Dubin’s performance. With respect to :;
:

her retracted sexual assault allegations, Arciero argues that Dubin failed to advise... her of the negative consequences of using the allegations, filed ineffective pretrial
motions, and failed to question Arciero about the allegations. However, Arciero’s
argument merely faults Dubin for believing her. The record clearly illustrates that'

4

(t> or y)
Case: 19-15532, 11/06/2020, ID: 11884037, DktEntry: 28-1, Page 5 of 5

- T

Arciero’s false allegations and her last-minute retraction—not Dubin’s conduct—'
guided the district court’s sentence. Even if otherwise, Arciero cannot show
prejudice because the district court imposed the obstruction-of-justice
enhancement based on three separate instances of Arciero’s untruthfulness, not just
her false allegations against the case agent. Moreover, Arciero conceded that she
does not assert a failure-to-investigate claim, and even if she did, she fails to
explain why Dubin should have doubted her sexual assault allegations.
Similarly, Arciero fails to show that Dubin’s November 2014 emails
regarding the merits of going to trial prejudiced her. After rejecting the first plea !
agreement and discharging her prior counsel, Arciero retained Dubin to go to trial.
No plea agreement was available when the two corresponded in mid-November
2014, and Arciero subsequently rejected the plea agreement the government
offered in late November 2014. Arciero was not prejudiced by Dubin’s counsel
because she desired to go to trial and decided to reject the then-available plea
agreements.
AFFIRMED.

!

5

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 1 of 35

PagelD #: 12

IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAII

UNITED STATES OF AMERICA,
Plaintiff,
vs.
MALIA ARCIERO (01),
Defendant.

)
)
)
)
)
)
)
)
)
)

CRIM. NO. 13-01036 (01)
CIV. NO. 18-00090 SOM

SOM

ORDER DENYING DEFENDANT MALIA
ARCIERO'S MOTION UNDER 28
U.S.C. § 2255 AND DECLINING
TO ISSUE A CERTIFICATE OF
APPEALABILITY

ORDER DENYING DEFENDANT MALIA ARCIERO'S MOTION UNDER 28 U.S.C.
§ 2255 AND DECLINING TO ISSUE A CERTIFICATE OF APPEALABILITY
I.

INTRODUCTION.
This motion brought under 28 U.S.C. § 2255 springs from

the unfortunate pairing of (1) a defendant who decided to
manufacture allegations that a federal agent had sexually
assaulted her with (2) a defense attorney predisposed to believe
her assertions of government misconduct.

Defendant Malia Arciero

now says that her trial attorney, Gary Dubin, provided
ineffective assistance of counsel.

Whatever deficiencies might

be identified in Dubin's performance, they had their
underpinnings in his acceptance of his client's lies.

While

couching her argument in the language of ineffective assistance,
Arciero is essentially faulting her attorney for having believed
her lies.

That is not a sound basis for an ineffective

assistance claim.

Arciero moreover fails to show that she was

prejudiced by Dubin's performance.

Her motion is therefore

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 2 of 35

denied.

PagelD #: 13

The court also declines to issue her a certificate of

appealability.
II.

PROCEDURAL HISTORY.
On January 8, 2015, after a six-day jury trial during

which Arciero was represented by Dubin, Arciero was convicted of
four drug-related crimes.

See Verdict, EOF No. 249.

discharged Dubin and retained new counsel.

Arciero

In September 2015,

the court sentenced Arciero to 172 months of imprisonment and 5
years of supervised release for each crime, with the terms
running concurrently, and a $400 special assessment.

See

Judgment, EOF No. 281.
Arciero appealed.

See Notice of Appeal, EOF No. 284.

On March 3, 2017, the Ninth Circuit affirmed in a memorandum
decision.

See ECF No. 307.
On March 12, 2018, Arciero timely filed the present

motion under § 2255.

See ECF No. 309.

Arciero claims that her trial counsel, Dubin, was
ineffective in a number of ways.

First, Arciero asserts that

Dubin was ineffective in failing to advise her not to testify at
a pretrial bail revocation hearing.

She argues that competent

counsel would have emphasized the obstruction of justice
sentencing consequences of doing so in the event the court found
her testimony lacked credibility, which it did.

2

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 3 of 35

PagelD #: 14

Second, Arciero asserts that Dubin was ineffective in
filing motions supported by Arciero's declarations.

She says

that Dubin failed to advise her about the merits of the motions,
the low likelihood of success, and the potential sentencing
conseguences.
Third, Arciero asserts that Dubin was ineffective in
providing deficient advice with respect to going to trial and
asserting an entrapment defense.
Finally, Arciero asserts that Dubin was ineffective in
failing to correctly advise her about the benefits of
cooperation.

She says that competent counsel would have had her

cooperate with the Government and plead guilty.
This court held an evidentiary hearing over two days.
On the first day, Dubin testified.

See Transcript of Proceeding,

EOF No. 338 ("Dubin Test. Day 1").

At a continued evidentiary

hearing, both Arciero and Dubin testified.

See ECF No. 349.

This court does not have a transcript of the continued hearing,
but refers to testimony on that day based on its notes and
memory, citing to Dubin's testimony at the continued hearing as
"Dubin Test. Day 2."
Government Exhibits 1 through 10 and Arciero Exhibits 1
through 4 were received in evidence for purposes of this motion.
While the documents were admitted as exhibits, this court also

3

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 4 of 35

PagelD#:15

refers to their electronic filing identifiers for ease of

reference.
III.

FACTUAL BACKGROUND.
At trial, Joleen Wood testified that Arciero was

supplying her with drugs.

Specifically, Wood testified that, on

April 30, 2013, Arciero sent Wood a message that stated, "Hey
girl. . . Gotta talk,2 u ASAP ok. .
talked about.

. . . Can 4 19."

Remember that thing we

See Ex. 405; Jolene Wood Test, at

2-52 (Dec. 12, 2014), ECF No. 297, PagelD # 2877.

Wood said that

this was Arciero's response to Wood's inquiry about a multi-pound
methamphetamine sale; the message meant that Arciero could supply
Wood with 4 pounds of methamphetamine at a price of $19,000 per
pound.

See Wood Test, at 2-53 and 2-67, PagelD #s 2878 and 2892.

Wood responded that she wanted only a pound of methamphetamine at
that time.

See Jolene Wood Test, at 3-38 (Dec. 16, 2014), ECF

No. 298, PagelD # 2997.
Wood was ultimately arrested and agreed to cooperate
with law enforcement.

An agent posing as Wood (or Wood at the

direction of the agent) sent Arciero a message asking about the
deal, "So what's up?
long.

How long more?

He going split."

Da guy not going wait dat

Wood Test, at 3-97,‘PagelD # 3056.

Arciero agreed to deliver the methamphetamine to Wood's
apartment.

Id. at 3-39.

4

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 5 of 35

PagelD #: 16

Arciero eventually sent Wood a message asking who was
at Wood's apartment.

The response was that only Wood was there.

Arciero then sent a message stating, "I going come up alone but
KK going stay down the road with the dog."

Ryan Faulkner Test.

at 4-37 (Dec. 17, 2014), ECF No. 299, PagelD # 3167.

Arciero and

her sister Keala, aka KK, were arrested when they drove into the
parking lot of Wood's apartment.
the car.

Methamphetamine was found in

Amy Garon Test, at 4-113 to -14 (Dec. 17, 2014, ECF

No. 299, PagelD #s 3243-44.
After her arrest, Arciero initially cooperated with law
enforcement.
# 4310.

See Decl. of Malia Arciero, ECF No. 320-2, PagelD

Believing that the Government had substantial evidence

against her, she hoped that by cooperating she would get a
lenient sentence.

See Malia Arciero Test.

(Dec. 4, 2018).

As

part of her cooperation, she took Government agents to where she
had gotten the drugs at issue and told them about all her drug
trafficking activity.

Id.

In July 2013, Arciero hired Michael J. Green to
represent her.
# 4309.

See Decl. of Malia Arciero, ECF No. 320-2, PagelD

Arciero says that Green did not explain anything to her;

she reports having been confused with respect to his
recommendation that she plead guilty.

Id., PagelD # 4311.

Arciero says Green advised her to continue cooperating with the
Government.

See Arciero Test.
5

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 6 of 35

PagelD #: 17

While represented by Green, Arciero was offered a plea
deal by the Government under which she could have avoided a
See Arciero Test.

potential 10-year mandatory minimum sentence.

While Arciero thought the deal was for two years of imprisonment,
there is no evidence other than Arciero's testimony that a twoyear prison term was offered by the Government.
Day 1 at 11, ECF No. 338, PagelD # 4361.

See Dubin Test.

Arciero refused the

plea deal and discharged Green because he was encouraging her to
plead guilty.

Dubin understood that Arciero wanted an attorney

who would go to trial.

See id. at 13, 66, ECF No. 338, PagelD

#s 4363, 4416.
A childhood friend of Arciero's gave Dubin's contact
information to Arciero.

See Decl. of Malia Arciero, ECF No. 320-

2, PagelD # 4309; Dubin Test. Day 1 at 65, ECF No. 338, PagelD
# 4415.

On November 25, 2013, Green withdrew as Arciero's

attorney and Dubin substituted in as her counsel.

See

Stipulation and Order Re: Withdrawal and Substitution of Counsel
for Defendant Malia Arciero, ECF No. 28.
Arciero told Dubin that she was innocent, that she was
dissatisfied with Green, and that she wanted to go to trial.
Dubin Test. Day 2.

See

She told Dubin she was actually the victim of

a sexual assault by the case agent.

See Dubin Test. Day 1 at 54,

65-66, ECF No. 338, PagelD #s 4404, 4415-16.
the agent's penis in considerable detail.
6

Arciero described

Dubin believed the

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 7 of 35

PagelD #: 18

allegations, which Arciero repeated numerous times during the
course of Dubin's representation of her.

Id. at 54, 68, PagelD

#s 4404, 4418.
In Dubin, Arciero had an attorney who had a low opinion
of many aspects of the criminal justice system.

Dubin's views

may have sprung from his observations of how his clients were
treated, but possibly, Dubin's views were influenced by what he
says was his wrongful conviction of tax crimes that he describes
the IRS as belatedly recognizing that he should not have been
charged with.

See Dubin Test. Day 1 at 46-47, ECF No. 338,

PagelD # 4396-97.
Arciero says that while Green had wanted her to plead
guilty, Dubin was confident that he could get the charges
dropped.

See Decl. of Malia Arciero, ECF No. 320-2, PagelD

# 4311; Declaration of Gary Victor Dubin, ECF No. 319-4, PagelD
# 4124.

For his part, Dubin says that he fully explained to

Arciero the risks of not pleading guilty and of going to trial.
Dubin says Arciero was adamant about not pleading guilty. See
Dubin Decl., ECF No. 319-4, PagelD # 4124; Dubin Test. Day 1 at
11, ECF No. 338, PagelD #s 4358-61.

Dubin's declaration is

consistent with an email Dubin sent to William Shipley, the
attorney for Arciero's sister.

Dubin emailed:

I talked with Malia this evening, explaining
to her everything that Mike [Green] and you
told me today, and especially the many risks
7

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 8 of 35

PagelD #: 19

involved in each of her present alternative
choices.

Malia refuses to agree to the Information and
to enter a guilty plea, Her decision she
says is final.
She intends to fight the charges all the way
and my law firm intends to do the same for
her.
Govt. Ex. 3, ECF No. 319-4, PagelD # 4134.
On October 30, 2013, Arciero was released from custody
on an unsecured bond of $25,000.

See ECF No. 12.

One of the

conditions of her pretrial release was that she refrain from
using illicit drugs and that she submit to random drug tests.
Id., see also Order Setting Conditions of Release, ECF No. 15.
On February 20, 2014, Alison G.K. Thom, Senior U.S.
Pretrial Services Officer, informed the court that Arciero had
violated the terms and conditions of her pretrial release by
submitting a urine specimen on January 27, 2014, that tested
positive for methamphetamine.

See ECF No. 49.

Thom asked that

the court issue an order to show cause why Arciero's pretrial
release should not be revoked.

Id.; Arciero Decl., PagelD # 4312

(indicating that Arciero had failed a drug test in January 2014).
On March 28 and 31, 2014, and April 1, 2014, the
magistrate judge held hearings with respect' to the order to show
cause why Arciero's pretrial release should not be revoked.
ECF Nos. 61-63.

On March 31, 2014, Arciero, represented by
8

See

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 9 of 35

PagelD #: 20

Dubin, testified about the allegation that she had had a urine
test on January 27, 2014, that tested positive for
methamphetamine.

Arciero now says that Dubin neglected to tell

her why she was being called to testify.
PagelD # 4312.
2014 .

See Arciero Decl.,

She denied having used methamphetamine in January

See ECF No. 83, PagelD # 132.

She claimed to have tested

positive for methamphetamine only because she and her sister had
been cleaning her mother's house when she cut her hand on a
methamphetamine pipe with drug residue in it.

Id., PagelD #s

150-152.

Arciero had told this to Dubin in advance of the

hearing.

See Govt. Ex. 10.
On April 1, 2014, the magistrate judge determined that

Arciero had used methamphetamine prior to the drug test on
January 27, 2014, finding that Arciero's "explanation of how she
was exposed to methamphetamine while house cleaning is not
believable."

ECF No. 84, PagelD # 169.

The magistrate judge

nevertheless held the bail violation in abeyance.
Arciero also testified before the magistrate judge that
she was concerned about being "set up" with a false drug test.
She described having been forced to perform oral sex on the case
agent.

See Arciero test., ECF No. 83, PagelD # 141 (describing

giving him fellatio in the storage closet at the ICE
headquarters).
release status.

She said she viewed the agent as controlling her
Id., PagelD #s 144-45.
9

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 10 of 35

PagelD #: 21

However, on May 23, 2014, the magistrate judge revoked
Arciero's pretrial release after finding an additional violation
of her release conditions.

See ECF No. 87.

On August 18, 2014, Dubin filed three motions on behalf
of Arciero.

See Motion to Dismiss Based on Outrageous Government

Conduct and/or Entrapment, ECF No. 105; Motion to Suppress Items
Seized, ECF No. 106; and Motion to Suppress Coerced Involuntary
Typed Confession, ECF No. 107.

Each motion was supported by the

same Declaration of Malia Arciero accusing the case agent of
having sexually assaulted her.

The declaration stated that the

agent had become obsessed with Arciero when she was a stripper at
a local club in 1998.

ECF No. 105-1, PagelD # 274.

The

declaration accused the agent of being in a drug-dealing
partnership with someone and of arresting rival drug dealers.
Id., PagelD # 274-75.

Arciero says that she started an online

escort service in 2001, and that the agent repeatedly called the
escort service in 2005.

Id., PagelD # 275.

According to Arciero, the agent routinely set people
up.

For example, Arciero said that Jessie Samuels had a drug

dealer debt, and the case agent got Samuels busted.

The agent's

supposed drug partner allegedly told Arciero that the agent could
get Samuels out if Arciero brought the drug partner two hand
grenades, which Arciero said she did.

10

Id., PagelD # 276.

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 11 of 35

PagelD #: 22

Arciero says that, after she was arrested for the drugs
in this case, the case agent told her that he had entrapped her
because he knew she was an escort who would be able to give him
lots of information.

Id., PagelD # 279.

According to Arciero,

the agent told her that she would not have to go to the Federal
Detention Center if she did what' he wanted.

Id., PagelD # 280.

She said that the agent then typed up a false confession and told
her to sign it, saying that she would go to prison if she
Id., PagelD # 281.

refused.

Arciero reports that, as soon as she became the agent's
informant, he began sexual advances towards her.
# 282.

Id., PagelD

He allegedly began "petting" her while she was a

passenger in his car.

Id.

She says that, in late August 2013,

she met the agent at ICE headquarters, where the agent forcibly
took her to a storage room, handcuffed one of her hands, took out
his penis, and forced her to perform oral sex.
#s 286-87.
length.

Id., PagelD

She said his penis was "two-toned" and described its

Id., PagelD # 287.

She said that the agent told her

that he would kill her if she told anyone about what had happened
and that he would rape her in the future.

Id.

Dubin's recollection is that Arciero "steadfastly
maintained that she was innocent."
Dubin, ECF No. 319-4, PagelD # 4124.

Declaration of Gary Victor
In November 2014, the month

before trial started, Arciero's sister decided to plead guilty,
11

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 12 of 35

PagelD #: 23

causing Ariciero to rethink whether she should also plead guilty.
In an email to Dubin dated November 18, 2014, Arciero stated,
Well, it is official.[] I called her earlier
and she was with her lawyer and said she had
signed the papers and changed her plea, She
said it is not worth the risk of possibly
doing 14 years in prison.[]
I think this is going to greatly impact my
case and now I am thinking it might be best
to do the same before I get even more time
than that.
Defendant's Ex. 1 at 8, ECF No. 320-1, PagelD # 4291.
Dubin responded on November 19, 2014: "For you to do
what?

Plead guilty and accept a sentence of twenty years at the

mercy of the court?
others in?"

Or maybe reduce your sentence by turning

Id.

Arciero wrote back on November 20, 2014:
Didn't I all ready turn people in before all
this for a reduced sentence? They were
offering me 2 or 3 years before only.[] If
we go to trial and lo[]se I will most likely
get 20 years [] not if I was to change my
plea now right? I am confused and my sister
doing this to me has made me unsure about
everything and extremely upset.... I just
really do not want to go to trial...
Def. Ex. 1 at 8, ECF No. 320-1, PagelD # 4291 (extra periods in
original) ..
On November 19, 2014, in a separate email chain,
Arciero wrote to Dubin:
Is it really a good idea to continue at this
point? I really do not want to waste any
more of the court[']s time and I want to
12

Case l:18-cv-00090-SOM Documents Filed 01/28/19 Page 13 of 35

PagelD#:24

change my plea because I do not think that
there is any way we are going to be able to
beat my charges successfully, There is too
much evidence against me and now my sister is
against me and I really do not feel up to
going on the stand and giving testimony when
I know that I am pretty much guilty. . . . I
really do not want to take a gamble at going
to trial and . . . the further we continue on
the worse it is going to be for me isn't it
if I decide to change my plea down the road?
I hope you understand and this decision has
been very hard and stressful for me to make,
but I feel like the. odds are way too much
against me and I do not want to risk lo[]sing
the rest of my life when I could just lo[]se
a few years of my life!
Def. Ex. 1 at 15, ECF No. 320-1, PagelD # 4298.
Dubin responded the same day, "Malia: No one to my
knowledge is offering you anything, especially after this
Friday."

Id.
The following day, November 20, 2014, Arciero replied:
Gary,
You don't need an offer to change your plea
though right?
It is just that there
is so much evidence against me, that it seems
impossible to be able to convince any one of
my innocence at this point. Maybe there was
governmental misconduct that happened after
the fact that I got busted with all those
drugs in my car, but that does not erase the
fact that they got me in the way they did. .
. . I have been in here for so long, that I
do not mind doing a few years.... That
would be better than wasting so much of
everyone[']s time while being stuck in this
hell hole.

Id.

13

Case l:18-cv-00090-SOM Documents Filed 01/28/19 Page 14 of 35

PagelD#:25

According to Dubin, his responses to Arciero were
attempts to control his client's emotions.
at 26, ECF No. 338,, PagelD # 4376.

See Dubin Test. Day 1

He told Arciero:

When you retained me we had a sure-fire game
plan. Nothing has really changed -- NOTHING
-- except your emotional tantrums.
You are at FDC because of your conduct
according to Magistrate [Judge] Chang.
Please blame no one else.

You cry that the situation is hopeless, when
in truth it is not unless you continue to
make it so, but it might be if your Sister
testifies against you depending on what she
makes up to avoid prison.
I am in a drug trafficking jury trial for the
past two weeks in a case that everyone said
was impossible to win, yet after two days of
deliberations the jury is still unable to
make a decision and I was able to block
crucial prosecution evidence from being seen
by the jury. Win or lose, that example puts
your bellyaching to shame. Tell that to my
client in that case and he would laugh in
your face.

You talk about wanting a plea deal, I have
asked the prosecutor several times and each
time the idea was brushed aside.
Ask yourself this: why would they give you
anything but the maximum sentence now that
they believe they have your Sister to testify
against you and to name others?
The irony in all of this is that you
mistakenly think that your situation is
hopeless just because what has happened in

14

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 15 of 35

PagelD#:26

the past, There is a new player in town
however: Me.
Def. Ex. 1 at 13-14, ECF No. 320-1, PagelD # 4296-97.
Later the same day, Dubin wrote to Arciero to address
her three motions and her testimony about the alleged sexual
assault:
Remember, these evidentiary hearings are not
the actual trial, which begins in midDecember .
These are your three motions, if denied you
lose nothing and if granted you win big time.
So what are you worried about?
You want to get out of your present hell
hole, don't you?
Then the best way to do that is to win and
not to run away from it all like a spoiled
brat.
Def. Ex. 1 at 12, ECF No. 320-1, PagelD # 4295.

The evidentiary

hearings Dubin was referring to concerned Arciero's assertion
that she had been sexually assaulted by the case agent.
Arciero's sister's anticipated guilty plea and
potential testimony against Arciero led Dubin to contact the
Government to discuss a plea deal.
ECF No. 338, PagelD # 4399.

See Dubin Test. Day 1 at 49,

Three days later, on November 24,

2014, AUSA Michael Kawahara offered Arciero a plea deal premised
on her pleading guilty to Count 1 (conspiracy to distribute and
to possess-with intent to distribute fifty grams or more of
methamphetamine, its salts, isomers, and salts of its isomers) in
15

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 16 of 35

exchange for the dismissal of the remaining counts.

PagelD#:27

As part of

the deal, Arciero would be required to sign a declaration
recanting all her allegations of misconduct by the case agent.
See Govt. Ex. 4, ECF No. 319-4, PagelD #s 4136-59.
Arciero responded on November 26, 2014, "Fuck that. .
. I am not signing shit that makes me so angry that they would
actually want me to lie. . .
system?

What the hell is wrong with the

They are worse con artists th[a]n criminals. .

fucked up."

that[']s

Govt. Ex. 5, ECF No. 319-4, PagelD # 4161; see also

Dubin Test. Day 1 at 76-77, 80, ECF No. 338, PagelD #s 4426-27,
4430.
On November 26, 2014, Dubin told Arciero that the
Government and the court were disappointed to hear that Arciero
had rejected the plea offer and that she "would not sign the
confession declaration because it was untrue."
ECF No. 320-1, PagelD # 4286.

Def. Ex. 1 at 3,

Dubin suggested that the

Government should "come up with a better offer."

Id.

On November 28, 2014, Arciero wrote to Dubin, "Thank
you and I feel like I should hot let them win and it makes me
even more mad to know that they actually want to cover up for
that prick and now I understand why. . .

Tell them I would

sign their false document if they could promise me something
under 3 years, but I doubt Kawahara has that kind of power."

16

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 17 of 35

PagelD#:28

Def. Ex. 1 at 3, ECF No. 320-1, PagelD # 4286; see also Dubin
Test. Day 1 at 84, PagelD #s 4434.
Dubin then told Arciero that he had asked AUSA Kawahara
about going back to "the purported original offer of two to three
years based on your prior cooperation," but was told that such a
deal was "impossible now because of all the alleged false things
Def. Ex. 1 at 2, ECF No. 320-

you said against" the case agent.
1, PagelD # 4285.

On December 1, 2014, Dubin told Arciero, "From your
emails, I can tell you are worn out over all of this.
stop the paralysis of analysis.

We go to trial!

Ex. 1, ECF No. 320-1, PagelD # 4288.

So let's

To win!"

Def.

On December 2, 2014,

Arciero responded to Dubin, "Thank you and let's do it and win!!!
Then we can make a movie out of this!!!"

Id.; see also Dubin

Test. Day 1 at 77, PagelD #s 4427.
Trial proceeded on December 11, 12, 16, and 17, 2014,
as well as January 6, and 7, 2015.
243, 245.

ECF Nos. 219, 220, 226, 227,

On January 8, 2015, after two days of deliberation,

the jury convicted Arciero of Counts 1 through 4 of the First
Superseding Indictment.

See ECF No. 249.

On January 9, 2015, Dubin wrote to Arciero, telling her
to "please understand that this is only round one.

Whereas the

system can always bury a criminal defendant skillfully and make
it look good, what was done to you in court was completely sloppy

17

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 18 of 35

PagelD #: 29

and in clear violation of your constitutional rights."

Def.

Ex. 1 at 19, ECF No. 320-1, PagelD # 4302.

Dubin informed

Arciero that he was moving for a new trial and appealing the
matter to the Ninth Circuit.

Id.

He told her, "You need to

understand that the alternative to pleading guilty was always a
trap.

Once the prosecution even offers a criminal defendant

three or four years, the district judge can give you' any length
of sentence he or she pleases in the end upon sentencing."

Id.

On September 18, 2015, before she was sentenced, and in
the interest of avoiding a harsh sentence, Arciero retracted her
accusations against the case agent, stating that her accusations
against him were false.

See Declaration of Malia Arciero, ECF

No. 279-2, PagelD # 1865.

She explained that her previous

accusations that the case agent "raped [her] and forced [her] to
give him oral sex" were "not correct and I therefore withdraw
them."

Id., PagelD # 1868.
At Arciero's sentencing hearing on September 21, 2015,

this judge imposed a two-level obstruction of justice enhancement
based on (1) Magistrate Judge Chang's determination that Arciero
was not credible in her explanation with respect to the January
2014 drug test;

(2) this judge's own finding that Arciero had

lied to the court in saying she had no involvement with drug
dealing; and (3) Arciero's false accusations concerning the case
agent's conduct.

See ECF No. 289, PagelD #s 2073, 2075.
18

Case l:18-cv-00090-SOM Documents Filed 01/28/19 Page 19 of 35

PagelD#:30

Arciero now complains that Dubin told her that, with
Id., PagelD #s 4311-

enough money, he could beat the Government.
12.

She says that Dubin convinced her that he could get the

charges dropped by filing civil lawsuits based on allegations of
Government misconduct and that, even if the matter went to trial,
she could win.

Id., PagelD # 4312.

Dubin a substantial amount.

Arciero indisputably paid

Similarly indisputable is Dubin's

filing of a state-court civil complaint on Arciero's behalf with
respect to alleged Government misconduct.

This state-court

complaint accused the same case agent of the very conduct Arciero
had previously mentioned in federal filings.
ECF No. 319-4, PagelD # 4170.

See Govt. Ex. 7,

The court takes judicial notice of

the indication in the state-court docket that Arciero voluntarily
dismissed the state-court action on August 12, 2015.

See

http://hoohiki.courts.hawaii.gov/#/search (so indicating when one
enters Case ID 1CC141000787, then clicks on "Document List").
Dubin says that Arciero was heavily involved in the drafting of
the state-court complaint, even asking that it be worded more
strongly.

Declaration of Gary Victor Dubin, ECF No. 319-4,

PagelD # 4126. Dubin appears to have relied on what Arciero told
him.
Notwithstanding her post-trial retraction of her
allegations of sexual misconduct by the case agent, Arciero
submits a new declaration in support of her § 2255 motion that

19

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 20 of 35

PagelD#:31

says, "Throughout the course of my cooperation, many bad things
happened to me.

I was kidnapped, beaten, robbed and sexually

See Motion of Declaration of Malia Arciero, ECF

exploited."

No. 320-2, PagelD # 4310.

It is not clear whether she is

attempting to resurrect her accusations against the case agent.
She did say at the § 2255 hearing that she was standing by her
declaration retracting the allegations, but she appears reluctant
to firmly close the door on her earlier account.
Arciero says, "Nothing was ever explained to me" by
Dubin; "Dubin coerced me to drop my guilty plea and to go to
trial."

Id. at 4312.

With respect to her testimony at the

pretrial bail revocation hearing, Arciero says, "Without
informing me or preparing me in any way, Mr. Dubin called me to
testify without properly informing me on what - and why - I was
testifying."

Id.

Arciero says she signed her declaration in

support of the three motions without being told by Dubin what the
trial strategy was because he said that the declaration would
lead to the dropping of the charges.

Id., PagelD # 4313.

She

said that she had "no idea what was going on" with respect to the
outrageous Government conduct motion.

Id., PagelD # 4314.

Arciero says Dubin told her that, "since there was no
fingerprints on the bag [of drugs], I had a good chance at
winning."

Id.

20

Case l:18-cv-00090-SOM Documents Filed 01/28/19 Page 21 of 35

PagelD#:32

The live testimony that Dubin and Arciero provided in
connection with the § 2255 motion was not as helpful as this
court had hoped.

Dubin was frequently nonresponsive, choosing to

use his time on the witness stand to scold the attorney
representing Arciero on her § 2255 motion for engaging in what
Dubin saw as untoward innuendo, or to criticize the criminal
justice system and various players in it.1

Arciero was not

examined as searchingly as would have been helpful.

For the most

part, this court relies on the written record.
IV.

ANALYSIS.
A federal prisoner may move to vacate, set aside, or

correct his or her sentence if it "was imposed in violation of
the Constitution or laws of the United States,

. . . the court

was without jurisdiction to impose such sentence, or . . . the

'By way of illustration, the court notes that Dubin
complained that judges were too friendly to AUSAs. He cited as
one piece of evidence the postponement of Arciero's trial for an
entire day to allow attendance at AUSA Kawahara's retirement
party. See Dubin Test, at 43, ECF No. 338, PagelD # 4393 ("As I
recall, the trial was postponed a day so that they could have a
farewell party for the prosecuting attorney."). This judge,
having presided over the trial, says that no trial postponement
occurred relating to the AUSA's retirement party. It is
difficult to imagine that the AUSA would have agreed to a
retirement party in the middle of an ongoing trial, especially
when the AUSA's retirement was not occurring until months after
the trial. Jury deliberations began on January 7; 2015, and the
AUSA who tried the case was still filing documents in this matter
as of March 11, 2015. See ECF No. 264. The court's recollection
is that the AUSA's retirement party occurred close to when he
actually retired around March 2015. The court discusses this
minor matter only because it very easily illustrates that Dubin's
recollections were not always reliable.
21

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 22 of 35

PagelD #: 33

sentence was in excess of the maximum authorized by law, or is
rr

otherwise subject to collateral attack . .
§ 2255.

28 U.S.C.

There are some general rules regarding what kinds of

claims can and cannot be raised in a § 2255 petition.
A § 2255 petitioner may not invoke § 2255 "to
relitigate questions which were or should have been raised on a
direct appeal from the judgment of conviction."
Marchese, 341 F.2d 782, 789 (9th Cir. 1965).

United States v.

For example, a

§ 2255 petition cannot be based on a claim that has already been
disposed of by the underlying criminal judgment and ensuing
appeal.

As the Ninth Circuit stated in Olney v. United States,

433 F.2d 161, 162 (9th Cir. 1970), "Having raised this point
unsuccessfully on direct appeal, appellant cannot now seek to
relitigate it as part of a petition under § 2255."
Similarly, a § 2255 petitioner is procedurally barred
from raising an issue in a § 2255 petition if the issue could
have been raised earlier, unless the § 2255 petitioner is
actually innocent, United States v. Guess, 203 F.3d 1143, 1145
(9th Cir. 2000), or he or she can demonstrate both "cause" for
the delay and "prejudice" resulting from the alleged error.
United States v. Frady, 456 U.S. 152, 167-68 (1982).

As the

Supreme Court stated in Frady, "[T]o obtain collateral relief
based on trial errors to which no contemporaneous objection was
made, a convicted defendant must show both (1)
22

'cause' excusing

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 23 of 35

his double procedural default, and (2)

PagelD #: 34

'actual prejudice'

resulting from the errors of which he complains."

Id.; accord

Davis v. United States, 411 U.S. 233, 242

To show

(1973).

"actual prejudice," a § 2255 petitioner "must shoulder the burden
of showing, not merely that the errors at [her] trial created a
possibility of prejudice, but that they worked to [her] actual
and substantial disadvantage, infecting [her] entire trial with
error of constitutional dimensions."

Frady, 456 U.S. at 170.

Of course, ineffective assistance of counsel claims may
be brought in a § 2255 proceeding, even if not asserted in a
defendant's direct appeal.
U.S. 500, 504-05 (2003) .

See Massaro v. United States, 538

In so ruling, the Supreme Court

recognized that Frady's procedural bar should not apply in cases
raising ineffective assistance of counsel claims in § 2255
motions because the record may not be properly developed to raise
ineffective assistance of counsel claims on direct appeal.

Id.

To establish ineffective assistance of counsel, a
defendant has two separate burdens of proof.

First, the

defendant must show that his or her counsel's performance was
deficient.

Second, the defendant must show the deficient

performance prejudiced his defense.

Strickland v. Washington,

466 U.S. 668, 687 (1984); Turk v. White, 116 F.3d 1264, 1265 (9th
Cir. 1997)

(stating that a defendant has two separate burdens of

proof in an ineffective assistance of counsel claim: first, that
23

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 24 of 35

PagelD #: 35

counsel's performance was deficient; second, the deficient
performance prejudiced the defense); Malivao v. United States,
2018 WL 6834704, at *4 (D. Haw. Dec. 28, 2018)

(stating that the

defendant "bears the burden of proof as to both prongs of the
Strickland analysis").

There is "a strong presumption" that

counsel's conduct was reasonable and that counsel's
representation did not fall below "an objective standard of
reasonableness" under "prevailing professional norms."
688.

Id. at

Even if a petitioner can overcome the presumption of

effectiveness, the petitioner must still demonstrate a
"reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different."
Id. at 694.

Because "[i]t is all too tempting for a defendant to

second-guess counsel's assistance after conviction," judicial
scrutiny of counsel's performance is highly deferential.

Id. at

689.
A.

Arciero Does Not Show That Dubin Was Ineffective
With Respect to Arciero's Testimony at the
Pretrial Bail Revocation Hearing.

Arciero asserts that Dubin was ineffective in failing
to advise her against testifying at the pretrial bail revocation
hearing on March 31, 2014.

According to Arciero, competent

counsel would have emphasized the danger of getting an
obstruction of justice sentencing enhancement in the event the
court found her testimony to lack credibility, which it did.
24

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 25 of 35

PagelD #: 36

Arciero fails to meet her burden of demonstrating that Dubin's
advice with respect to testifying at the pretrial hearing fell
below an objective standard of reasonableness.
At most, in her declaration filed on June 21, 2018,
Arciero indicates that Dubin failed to tell her why she had to
testify or to prepare her for her testimony.
PagelD # 4312.

See ECF No. 320-2,

Arciero's declaration is at least partially

contradicted by her testimony at that pretrial hearing, where she
did not appear as confused as she would now have this court
believe she was.

Arciero testified, for example, that she

understood that she was being accused of having had a positive
urine test on January 27, 2014.

See Testimony of Malia Arciero

at 3 (Mar. 31, 2014), ECF No. 83, PagelD # 132.

She connected

that positive test with having cut her hand on a broken pipe that
had drug residue in it.

Id. at 22, PagelD # 151.

Dubin may have

believed Arciero's explanation, just as he accepted her account
about having been sexually assaulted by the case agent.

If so,

her testimony might not have given rise to concern on his part
about an obstruction of justice enhancement.

See Strickland, 466

U.S. at 691 ("the reasonableness of counsel's actions may be
determined or substantially influenced by the defendant's own
statements or actions").
Even assuming Dubin should have advised Arciero about
the risk of a sentencing enhancement, Arciero fails to meet her

25

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 26 of 35

burden of establishing prejudice.

PagelD#:37

At her sentencing hearing,

this judge imposed the obstruction of justice enhancement to
Arciero's offense level computation based on (1) Arciero's lie
with respect to why she had failed the drug test,

(2) Arciero's

denial about having been involved with drug dealing, and
(3) Arciero's lie with respect to the case agent's conduct.
Arciero's testimony at the pretrial revocation hearing was not
the sole basis of the obstruction of justice enhancement.

She

does not show that she would have escaped that enhancement had
Dubin warned her before she testified at the pretrial bail
revocation hearing.
B.

Arciero Does Not Show That Dubin Was Ineffective
in Filing Motions Supported by Arciero's
Declaration.

To the extent Arciero seeks relief under § 2255 on the
ground that Dubin should not have filed motions based on her
declaration concerning alleged sexual misconduct by the case
agent, Arciero cannot establish that Dubin's conduct fell below
an objective standard of reasonableness under prevailing
professional norms.

Dubin testified that, based on Arciero's

description of the case agent's penis, he believed that Arciero
had been sexually assaulted by the case agent.

See Strickland,

466 U.S. at 691 ("the reasonableness of counsel's actions may be
determined or substantially influenced by the defendant's own
statements or actions").

Another attorney may well have asked
26

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 27 of 35

PagelD#:38

more challenging questions of a client making such an accusation,
but Arciero can hardly complain that her own attorney believed
her.
Dubin may have been more inclined to believe Arciero's
account than other attorneys might have been, given his own
experience with the criminal justice system.

But Arciero fails

to meet her burden of demonstrating that Dubin's conduct fell
below "an objective standard of reasonableness" under "prevailing
professional norms."

Strickland, 466 U.S. at 688.

If any

complaint by her turns on his belief in what she told him, then
she is very much like the proverbial child who, having killed his
parents, seeks sympathy on the ground that he is now an orphan.
And while that child may have committed murder in response to
abuse, Arciero has recanted her allegations of sexual abuse.
To the extent Arciero is complaining that Dubin failed
to advise her what chance she had of winning the motions or of
the possible consequences of filing the motions, Arciero again
falls short of showing that Dubin's conduct was deficient.

At

most, Arciero says that she signed her declaration in support of
the three motions without knowing what Dubin's trial strategy was
and while relying on his alleged assurances that the declaration
would lead to the dropping of the charges.

See Motion of

Declaration of Malia Arciero, ECF No. 320-2, PagelD # 4313.
Dubin testified that he advised Arciero with respect to

27

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 28 of 35

PagelD #: 39

testifying as to the motions, telling her that it would be
difficult to succeed on the motions without her testimony.
Dubin Test. Day 1, ECF No. 338, PagelD # 4428.

See

Arciero's graphic

description concerning the case agent led Dubin to believe that
Arciero had actually been assaulted.

Dubin's reliance on Arciero

had to guide his strategic decisions about motions.
In any event, Arciero demonstrates no prejudice arising
out of the filing in 2014 of the three motions relating to
alleged sexual misconduct by the case agent.
106-1, and 107-1.

See ECF Nos. 105-1,

Arciero had already testified about the sexual

misconduct in her pretrial bail revocation hearing.
No. 83, PagelD # 141.

See ECF

The obstruction of justice enhancement

Arciero received was justified by multiple lies she told.

See

ECF No. 289, PagelD #s 2073, 2075.
C.

Arciero Does Not Show That Dubin Was Ineffective
With Respect to Asserting the Entrapment Defense.

Arciero asserts that Dubin was ineffective in arguing
entrapment as a defense.

This court submitted the entrapment

issue to the jury after instructing it with respect to
entrapment.

See ECF No. 246, PagelD #s 1601-03 (jury

instructions on entrapment).

While the defense was unsuccessful,

this court instructed the jury on the defense only because there
was some evidence going to the defense.

Under the circumstances,

Arciero fails to meet her burden of showing that Dubin was
deficient in asserting the defense.
28

Moreover, Arciero does not

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 29 of 35

PagelD #: 40

explain how she was prejudiced by the submission of. the
entrapment issue to the jury.
D.

Arciero Does Not Show That Dubin Was Ineffective
in Advising Her to Go to Trial.

Dubin says that Arciero "steadfastly maintained that
she was innocent" and "adamantly refused any thought of pleading
guilty."

Dubin Decl., ECF No. 319-4, PagelD # 4124.

Dubin

claims to have "fully investigated her case" and "fully discussed
with her the risks of her pleading not guilty and going to
trial."

Id.

Dubin recalls having the impression from Arciero

that her sister was the guilty party.

Id.

Arciero, on the other

hand says, "Nothing was ever explained to me."
PagelD # 4312.

ECF No. 320-2,

She says that "Dubin did not tell me that I would

lose my cooperation by going to trial, nor did he inform me of
the actual time I would be facing had I not gone to trial, or if
I lost at trial.
# 4315.

I was informed of nothing."

Id., PagelD

Arciero is not credible on this point.

In an email she

sent Dubin on November 20, 2014, she notes, "If we go to trial
and lo[]se I will most likely get 20 years."
ECF No. 320-1, PagelD # 4291.

Def. Ex. 1 at 8,

Arciero thus recognized that going

to trial carried the risk of a very serious sentence.
Right before trial, Arciero had second thoughts about
going to trial.

On November 19, 2014, she emailed Dubin that

there was a lot of evidence against her, stated that she did not
feel up to testifying at trial, and wondered whether there was
29

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 30 of 35

any way to change her plea to guilty.
# 4298.

PagelD #: 41

See ECF No. 320-1, PagelD

Dubin responded, "No one to my knowledge is offering you
Id.

anything."

Nevertheless, Dubin appears to have continued to

work with the AUSA prosecuting the case in an effort to get
Arciero a plea deal.2
On November 25, 2014, AUSA Kawahara sent Dubin a
proposed plea agreement that included a declaration for Arciero
to sign admitting that she had lied about the case agent's
supposed bad conduct.

See ECF No. 310-4, PagelD #s 4136-4159.

Arciero rejected the plea offer, telling Dubin: "Fuck that. .
I am not signing shit that makes me so angry that they would
actually want me to lie. . .
system?

What the hell is wrong with the

They are worse con artists th[a]n criminals. .

fucked up."

See

that[']s

Email from Malia Arciero to Gary V. Dubin

(11/26/2014), Govt. Ex. 5, ECF No. 319-4, PagelD # 4161; see also
Dubin Test. Day 1 at 76-77, 80, ECF No. 338, PagelD #s 4426-27,
4430.

Two days later, she reiterated this position, telling

Dubin: "Thank you and I feel like I should not let them win and
it makes me even more mad to know that they actually want to
cover up for that prick and now I understand why. . . . Tell them
I would sign their false document if they could promise me
something under 3 years, but I doubt Kawahara has that kind of

2Arciero claims that Dubin did not inform her of plea
offers, but she does not identify any plea offer that Dubin
failed to communicate to her. ECF No. 320-2, PagelD # 4315.
30

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 31 of 35

power."

PagelD #: 42

Email from Malia Arciero to Gary V. Dubin (11/28/2014),

ECF No. 320-1, PagelD # 4286.

These communications indicate that

Arciero was committed to going to trial based on her allegation
that the case agent had sexually assaulted her.

Dubin took

Arciero to trial based on her own allegations.
Dubin told Arciero on December 1, 2014, "From your
emails, I can tell you are worn out over all of this.
stop the paralysis of analysis.

We go to trial!

Ex. 1, ECF No. 320-1, PagelD # 4288.

So let's

To win!"

On December 2, 2014, she

responded to Dubin, "Thank you and let's do it and win!!!
we can make a movie out of this!!\"

Def.

Then

Id.; see also Dubin Test.

Day 1 at 77, PagelD #s 4427.
Dubin testified that he had to manage Arciero's
emotions.

# 4376.

See .Dubin Test. Day 1 at 26, ECF No. 338, PagelD

He may have had more enthusiasm about trial than other

attorneys, and he may have been a stronger advocate for trial
than other attorneys.

Still, Arciero, having told a tale of

gross abuse by the case agent, was at least partially responsible
for Dubin's attitude.

Given what Arciero told Dubin, this court

does not see Dubin's trial enthusiasm as falling below "an
objective standard of reasonableness" under "prevailing
professional norms."

Strickland, 466 U.S. at 688.

In any event, Arciero does not show that she was
prejudiced by Dubin's enthusiasm about going to trial.

31

Arciero

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 32 of 35

PagelD#:43

rejected any plea offer, maintaining that she was innocent and
that she had been sexually assaulted by the case agent.

In other

words, because Arciero does not show that, but for Dubin's
advice, she would have accepted a plea deal that was actually
offered to her, she cannot show that she was prejudiced by
following that advice.
E.

Arciero Does Not Show that Dubin Was Ineffective
with Respect to Advising Her about Cooperating.

Arciero asserts that Dubin was ineffective in failing
to correctly advise her about the benefits of cooperating.

For

his part, Dubin says that he "fully investigated her case" and
"fully discussed with her the risks of her pleading not guilty
and going to trial."

Dubin Decl., ECF No. 319-4, PagelD # 4124.

Arciero's own emails rejecting the November 2014 plea offer
establish that Arciero steadfastly maintained that she was
innocent and that the case agent had sexually assaulted her.

See

Email from Malia Arciero to Gary V. Dubin (11/26/2014) Govt. Ex.
5, ECF No. 319-4, PagelD # 4161 ("Fuck that.... I am not signing
shit that makes me so angry that they would actually want me to
lie."); Email from Malia Arciero to Gary V. Dubin (11/28/2014),
ECF No. 320-1, PagelD # 4286 ("Tell them I would sign their false
document if they could promise me something under 3 years").
Having insisted on going to trial, Arciero cannot now
maintain a claim that Dubin's conduct fell below "an objective
standard of reasonableness" under "prevailing professional
32

Case l:18-cv-00090-SOM Documents Filed 01/28/19 Page 33 of 35

norms."

PagelD#:44

See Strickland, 466 U.S. at 688; see also id. at 691

("the reasonableness of counsel's actions may be determined or
substantially influenced by the defendant's own statements or
actions").

In his live testimony, Dubin recognized that a judge

might have given her cooperation credit had she pled guilty, but
noted that that might not have occurred given her lies about the
case agent's conduct and her refusal to cooperate further.

Dubin

Test. Day 1 at 88, ECF No. 338, PagelD # 4438.
Moreover, Arciero fails to demonstrate any prejudice
arising out of Dubin's alleged failure to advise her about the
benefits of cooperating.

Arciero emailed Dubin on November 20,

2014, noting, "If we go to trial and lo[]se I will most likely
get 20 years."

Def. Ex. 1 at 8, ECF No. 320-1, PagelD # 4291.

It therefore appears that, even if Dubin failed to explain the
benefits of cooperating, Arciero recognized the risks of going to
trial.
At the end of the hearing on her § 2255 motion,
Arciero's counsel argued that, had she entered into a plea
agreement before March 31, 2014, when she lied to the magistrate
judge in her pretrial bail revocation hearing, her total offense
level would have been 29, instead of 34 (-2 for acceptance of
responsibility (U.S.S.G. § 3El.l(a)), -1 for early acceptance of
responsibility (U.S.S.G. § 3El.l(b)), and no +2 for obstructing
or impeding the administration of justice (U.S.S.G. § 3C1.1)).

33

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 34 of 35

PagelD #: 45

This court declines to credit such speculation about prejudice in
light of her rejection of the plea agreement offered to her while
she was represented by Green.

Arciero sought out Dubin precisely

because she did not want to plead guilty and instead wanted to go
to trial.

See Dubin Test. Day 1 at 13, 66, ECF No. 338, PagelD

#s 4363, 4416.

There is no evidence establishing that, had Dubin

advised her better about cooperating, she would have continued to
cooperate and would have pled guilty before March 31, 2014.

The

evidence shows that, from the time she retained Dubin in or about
November 2013, Arciero maintained her innocence, claimed to have
been sexually assaulted, and wanted to go to trial.
V.

THE COURT DECLINES TO ISSUE A CERTIFICATE OF
APPEALABILITY.
The court declines to grant Arciero a certificate of

appealability.

An appeal may not be taken to the court of

appeals from a final order in a § 2255 proceeding "[u]nless a
circuit justice or judge issues a certificate of appealability."
28 U.S.C. § 2253(c)(1)(B).

The court shall issue a certificate

of appealability "only if the applicant has made a substantial
showing of the denial of a constitutional right."
§ 2253 (c) (2) .

28 U.S.C.

When a district court denies a § 2255 petition on

the merits, a petitioner, to satisfy the requirements of
§ 2253(c) (2), "must demonstrate that reasonable jurists would
find the district court's assessment of the constitutional claims
debatable or wrong."

Slack v. McDaniel, 529 U.S. 473, 484
34

Case l:18-cv-00090-SOM Document 3 Filed 01/28/19 Page 35 of 35

(2000) .

PagelD #: 46

Reasonable jurists would not find this court's

assessment of the merits of Arciero's constitutional claims
debatable or wrong.
VI.

CONCLUSION.
For the foregoing reasons, the court denies Arciero's

§ 2255 motion and declines to issue her a certificate of
appealability.
The Clerk of Court is directed to enter judgment in
favor of the Government and against Arciero in Civil No. 18-00090
SOM and to close that case.

IT IS SO ORDERED.
DATED: Honolulu, Hawaii, January 28, 2019.

/s/ Susan Oki Mollway
Susan Oki Mollway
Chief United States District Judge

United States of America v. Arciero. Crim. No. 13-01036 SOM (01); Civ. No.
18-00090 SOM; ORDER DENYING DEFENDANT MALIA ARCIERO'S MOTION UNDER 28 U.S.C. § 2255
AND DECLINING TO ISSUE A CERTIFICATE OF APPEALABILITY

35

Case l:18-cv-00090-SOM Document 4 Filed 01/28/19 Page 1 of 1

PagelD #: 47

AO 450 (Rev. 5/85) Judgment in a Civil Case

UNITED STATES DISTRICT COURT
----------- DISTRICT OF HAWAII ----------JUDGMENT IN A CIVIL CASE
MALIA ARCIERO
Plaintiff(s),

Case: CV 18-00090-SQM

V.

USA
Defendant(s).
[ ]

[S]

Jury Verdict. This action came before the Court for a trial by jury. The issues
have been tried and the jury has rendered its verdict.
Decision by Court. This action came for consideration before the Court. The
issues have been considered and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that this action is dismissed, pursuant to
the “Order Denying Defendant Malia Arciero’s Motion Under 28 U.S.C. § 2255
and Declining To Issue A Certificate of Appealability”, filed January 28, 2019,
ECF No. 3.
Judgment in favor of Government.
It is further ordered that the Clerk of Court shall close this action.
January 28, 2019

Date

SUE BEITIA
Clerk
/s/ Sue Beitia by CB
(By) Deputy Clerk

